November 5, 2009

JULIE S. MOORE
SECRETARY OF THE BOARD OF GOVERNORS

SUBJECT: Audit Report – Postal Service Board of Governors’ Travel and
         Miscellaneous Expenses for Fiscal Year 2009
         (Report Number FT-AR-10-002)

This report presents the results of our audit of the Board of Governors’ (Board) travel
and miscellaneous expenses for fiscal year (FY) 2009 (Project Number
09BG001FT000). We conducted the audit in response to a Board resolution requiring
annual audits of its travel and miscellaneous expenses. This audit addresses financial
risk. See Appendix A for additional information about this audit.

Conclusion

Travel and miscellaneous expenses totaling $226,3391 and external professional fees
totaling $58,245 were properly supported, reasonable, and complied with U.S. Postal
Service and Board policies.

PROGRESS ON PRIOR YEAR ISSUE

We followed up on the prior year issue related to our Board audit.2 Specifically, the
Board office did not adequately segregate duties for purchasing, receiving, and
approving professional services. When we notified the Board office of the issue, the
Secretary of the Board separated the duties for obtaining professional services effective
October 29, 2008. Since the Board office took corrective action, we did not make a
recommendation. However, we continued to monitor this issue as part of our annual
audit work. During FY 2009, we did not identify any instances where segregation of
duties was not adequate.



1
  This amount includes $52,213 initially charged to the Postmaster General’s finance number for monthly Board
meeting expenses, and $19,997 charged to the National Events finance number. Except for $4,461 for the
September Board meeting, the costs were transferred to the Board’s finance number in FY 2009. Prior audits did not
include these costs.
2
  Postal Service Board of Governors’ Travel and Miscellaneous Expenses for Fiscal Year 2008 (Report Number
FT-AR–09–003, dated November 21, 2008).
Postal Service Board of Governors’ Travel and                              FT-AR-10-002
 Miscellaneous Expenses for Fiscal Year 2009


We are not making any recommendations in this report. As a result, management
chose not to respond formally to this report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment

cc: Joseph Corbett
    Mary Anne Gibbons
    Vincent H. DeVito, Jr.
    Stephen J. Nickerson
    Bill Harris




                                                2
Postal Service Board of Governors’ Travel and                                                         FT-AR-10-002
 Miscellaneous Expenses for Fiscal Year 2009


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Reorganization Act of 1970, as amended, established the Board, comprised
of the Postmaster General, Deputy Postmaster General, and nine Governors appointed
by the President. As of September 30, 2009, the Board consisted of the Postmaster
General, Deputy Postmaster General, and eight Governors.3

The Board directs and controls the expenditures of the Postal Service, reviews its
practices and policies, and establishes objectives and goals in accordance with Title 39,
U.S. Code. On July 8, 1986, the Board passed Resolution Number 86-12, which
requires annual audits of the Board’s travel and miscellaneous expenses.

The Board generally meets monthly in Washington, D.C., or other locations where
members can visit Postal Service facilities or large mailer operations. In FY 2009, the
Board held 30 meetings4 and incurred $226,339 in travel and miscellaneous expenses5
and $58,245 in external professional fees.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether travel and miscellaneous expenses — including
external professional fees — of the Board were properly supported, reasonable, and
complied with Postal Service policies and procedures and Board policies. To
accomplish our objective, we conducted fieldwork from March through October 2009.
We used the Board’s Policy Relating to Governors' Official Expenses and Postal
Service policies and procedures as criteria in our evaluation. We reviewed all 113
Board6 vouchers processed under finance number 101099 through the National
Accounting Oracle Financials Application - Accounts Payable Excellence (NAOFA-
APEX) System for travel and miscellaneous expenses incurred during FY 2009. We
also reviewed all Board professional fees incurred during the same period at the request
of the independent public accountant, Ernst & Young LLP.

We conducted this performance audit from March through November 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
3
  There was one vacancy at September 30, 2009.
4
  Meetings include full Board regular, annual, and special meetings and committee meetings, but do not include other
official functions such as stamp dedication ceremonies. A governor may participate by telephone in these meetings
and thus not incur travel costs.
5
  This amount includes $52,213 initially charged to the Postmaster General’s finance number for monthly Board
meeting expenses, and $19,997 charged to the National Events finance number. Except for $4,461 for the
September Board meeting, the costs were transferred to the Board’s finance number in FY 2009. Prior audits did not
include these costs.
6
  The Postmaster General and Deputy Postmaster General’s travel and representation expenses are not included in
the scope of this audit. They are included in the scope of the Postal Service officers’ travel and representation
expenses audit.




                                                         3
     Postal Service Board of Governors’ Travel and                                        FT-AR-10-002
      Miscellaneous Expenses for Fiscal Year 2009


     standards require that we plan and perform the audit to obtain sufficient, appropriate
     evidence to provide a reasonable basis for our findings and conclusions based on our
     audit objective. We believe that the evidence obtained provides a reasonable basis for
     our findings and conclusions based on our audit objective. Our tests of controls were
     limited to those necessary to achieve our audit objective. Our procedures were not
     designed to provide assurance on internal controls. Consequently, we do not provide
     an opinion on such controls. Also, our audit does not provide absolute assurance of the
     absence of fraud or illegal acts, due to the nature of evidence and the characteristics of
     such activities. We discussed our observations and conclusions with management
     officials on October 29, 2009, and included their comments where appropriate.

     We relied on computer-generated data from the NAOFA-APEX system. We performed
     specific internal control transaction tests on this system’s data, to include tracing
     selected financial information to supporting source documentation. For example, we
     verified Board travel payments recorded in NAOFA-APEX to hard copy original travel
     vouchers.

     PRIOR AUDIT COVERAGE

                                           Final
                       Report             Report      Monetary
 Report Title          Number              Date        Impact              Report Results
Postal Service      FT-AR-09-003         11/21/2008        $0      Travel and miscellaneous expenses
Board of                                                           totaled $116,241 and external
Governors’ Travel                                                  professional fees totaled $6,703
and                                                                and were properly supported and
Miscellaneous                                                      complied with Board policies.
Expenses for                                                       However, there was an internal
Fiscal Year 2008                                                   control issue pertaining to the
                                                                   purchase and approval of
                                                                   professional services. The Board
                                                                   office took corrective action so we
                                                                   did not make any
                                                                   recommendations.
Postal Service      FT-AR-08-008         2/15/2008        $2,527    Travel and miscellaneous expenses
Board of                                                            totaled approximately $92,600 and
Governors’ Travel                                                   external professional fees totaled
and                                                                 $1,300 and were properly
Miscellaneous                                                       supported and complied with Board
Expenses for                                                        policies. However, management
Fiscal Year 2007                                                    did not always comply with Postal
                                                                    Service policies and procedures
                                                                    pertaining to the approval and
                                                                    verification of Board travel
                                                                    vouchers. The Postal Service
                                                                    implemented our recommendation,
                                                                    which is now closed.




                                                      4
